U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




     National Telecommunications and
           Information Administration



     Arkansas Public Safety Interoperable
       Communications Grant Award No.
                       2007-GS-H7-0012
                    Final Audit Report No. DEN-19430
                                           March 2010




                     Denver Regional Office of Audits
                                             UNITEC STATES CEPARTMENT OF COMMERCE
                                             Office of Inspector General
                                             Wasl,lngcon 0 C 20230




March 22 2010


MEMORANDUM FOR:                 Lawrence E. Strickling
                                Assistant Secretary for
                                 Communications and Information
                                National Telecommunications and
                                 Information Administration



FROM:




SUBJECT:	                       Final Audit Report No. DEN-19430
                                Auditee: Arkansas Department of
                                Emergency Management
                                PSIC Award No. 2007-GS-H7-0012


Attached is a copy of our final audit report on the Arkansas Public Safety Interoperable
Communications (PSIC) award. Since there are no recommendations in the audit report, no
further action is needed and an agency Audit Resolution Proposal is not required. A copy of the
report will be posted on OIG's Web site pursuant to section 8L of the Inspector General Act of
1978, as amended.

If you have any questions regarding thjs report please call John S. Bunting, our Denver regional
inspector general for audits, at (303) 312-7650 and reference the final audit report number above
in any related correspondence.



Attachment

cc:	   Milton Brown, NTIA audit liaison
       Kathy Smith, NTIA chief counsel
       Laura Pettus, PSIC program manager
                                             UNITED STATES DEPARTMENT OF COMMERCE
                                             Office of Inspector General
                                             Washln    on 0 C 20230




  arh22,2010


Mr. David Maxwell
Dir ctor
 rkan a Departm nt of Emergenc Manag ment
Building #9501
Camp]o ph T. Robinson
 orth Little Rock AR 72199-9600

D ar     r.    axv 11:

 nclo d is a cop of final audit r port numb r D  - 19430 prepared b our D n            r R gionaJ
Offic . Th r port concerns th Publi afl t Interop rable Communication                    grant
awarded to your agency (award numb r 2007-G -H7-0012) by the ational
Telecommunications and Information Admini tration (NTlA).

 ince there are no recommendations in lh final. report, no further action is ne d d.

We appr ciate the cooperation and courtesi extended by you and your taff during th audit.
Th r port will be po ted on oro W bite pursuant to section 8L of the In p ctor General Act
of 1978 as amended.




Enclo   ill"




cc: Laura M. Pettus	 TIA P] program manag r
     arol n P. Dunn DHS/FEMA Orant Program Directorate
     hart F. Fi er rkansas Deput L gi lati  uditor
                                               UNITED STATES DEPARTMENT OF COMMERCE
                                               Office of Inspector General
                                                    ash.n   on 0 C 20230




  arch 22, 2010


M . Trace Trautman
Deputy s i tant Admini trator
Grant Program Directorate
FEMA
500 C tr t W
Washington D 20472-3615

Dear Ms.Trautman:

Enclosed is our final audit I' p 11 DE -194.)0) r garding Publi aft tint r p rabl
 ommunication grant numb r 2007-0 -H7-0012. hich wa award d b th             ational
T lecommunication and In~ rmation dministration to th         rkan a D partm nt of Emergency
Managem nt.

A copy of the report wi II be p t d on 01G' Web si te pursuant t s cti n 8L of th 111 pector
General Act of 1978, as am nded.

If you have any que tion regarding thi report pleas call J hn . Bunting, ur 0 nver regional
in pector g n ral for audit at (303 312-7650 and r fI renc the final audit r p rt number above
in any relat d corr ponden .




                      n ral   ~   r   udit

Enclosur

                              in p ctor oen ral
                                 Grant Program Dir ctorat
                              audit liai on


                                                     Directorate audit liai   n
                                        anag m nt
                                     Report In Brief
                                                   U.S. Department of Commerce Ofﬁce of Inspector General
                                                                         March 2010



Why We Did this Review                     National Telecommunications and Information Administration
On September 30, 2007, the National
Telecommunications and Information
Administration (NTIA) awarded a
                                           Arkansas Public Safety Interoperable Communications
$11,169,402 Public Safety Interoper-       Grant PSIC Award No. 2007-GS-H7-0012                           (DEN-19430)
able Communications (PSIC) grant
to the State of Arkansas to enhance
interoperable emergency communi- What We Found
cations. NTIA required a minimum
20 percent matching share from         Our audit covered the award period of October 1, 2007, through December 31, 2008, during
nonfederal sources for the acquisition which time Arkansas claimed total costs of $1,512,347. In general, we found ADEM to be in
and deployment of communications compliance with requirements and on track to complete the project on time.
equipment, and management and
administration costs.
                                           Speciﬁcally, ADEM has
The original award period ran from
October 1, 2007, to September
                                           • 	 prepared an investment justiﬁcation describing how the grant funds would be used to improve
30, 2010. In November 2009, the                interoperable communications and ensure interoperability with other public safety agencies.
President signed an act extending              It anticipates completing its ﬁve investments on schedule by the original September 30, 2010,
the award period to September 30,              PSIC program deadline;
2011, by which time all funds must
be expended.                               • 	 changed an unallowable portion of its matching share funds, thus meeting the minimum 20
                                               percent nonfederal matching share requirement for acquiring and deploying equipment, and
The governor of Arkansas desig-                managing and administering projects;
nated the Arkansas Department of
Emergency Management (ADEM)         • 	 complied with grant terms and conditions by fulﬁlling ﬁnancial reporting requirements,
as Arkansas’s state administrative
                                        meeting the cash drawdown requirement of drawing down funds 30 days prior to expenditure
agency to apply for and administer
PSIC funds.We audited costs claimed
                                        or a disbursement, and complying with the 80 percent pass-through requirement by passing
by ADEM to determine whether the        through $9.7 million, about 87 percent, of the $11.2 million of PSIC federal funds to local
recipient complied with NTIA PSIC       applicants;
grant guidelines and the Department
of Homeland Security’s (DHS) award • 	 claimed matching share costs in accordance with grant terms and conditions and PSIC’s
terms and conditions.                   reporting requirements; and
Background                                 • 	 claimed costs of $1,512,347 on their December 31, 2008, ﬁnancial status report. We deter-
The Digital Television and Public      mined that the costs claimed were reasonable, allowable, and allocable according to PSIC
Safety Act of 2005 authorized NTIA,    grant regulations.
in consultation with the DHS, to
implement the PSIC program—a
$1 billion one-time, formula-based
matching grant program intended     What We Recommended
to enable public safety agencies to
establish interoperable emergency   We made no formal recommendations in our report, but did suggest ways to enhance internal
communications systems using real- controls:
located radio spectrum.
                                           • 	 During our ﬁeldwork, we pointed out that ADEM had planned to claim $2,648,043 as match
The Implementing Recommendations               for an unallowable servicing contract. ADEM changed this match to an allowable capital
of the 9/11 Commission Act of 2007             improvement project, thus putting the funds to better use.
requires the Commerce Inspector
General to conduct ﬁnancial audits,
over 4 years, of a representative sam-
ple of at least 25 states or territories
receiving PSIC grants. The Arkansas
grant program is among our ﬁrst
audits under this requirement.
U.S. Department of Commerce                                                                                       Final Report DEN-19430 

Office of Inspector General                                                                                                    March 2010



                                                                 Contents


Introduction......................................................................................................................................1 

Findings and Recommendations ......................................................................................................3 

   I.  ADEM Asserts Individual Investments Are on Schedule.....................................................3
 
   II.  ADEM Changed Its Unallowable Matching Share ...............................................................5 

   III.  ADEM Complied with Grant Terms and Conditions ...........................................................6 

       A.  ADEM Complied with Financial Status Reporting Requirement....................................6 

       B.  ADEM Complied with Cash Drawdown Requirement ...................................................6
 
       C.  ADEM Complied with 80-Percent Pass-Through Requirement ......................................6 

   IV.  Reasonable and Allowable Costs Were Claimed..................................................................7 

   V.  Follow-Up Was Conducted on Prior Audit Recommendations............................................7 

Summary Results of Financial Audit ...............................................................................................8 

Agency Response and OIG Comments............................................................................................9
 
Appendix A: Objectives, Scope, and Methodology.......................................................................10
 
Appendix B: Summary of Source and Application of Funds ........................................................12 

Appendix C: Summary of Financial/Compliance Audit ................................................................13 

U.S. Department of Commerce                                                          Final Report DEN-19430 

Office of Inspector General                                                                      March 2010



                                                 Introduction


On September 30, 2007, the National
                                                                     Public Safety Interoperable
Telecommunications and Information                                   Communications Program
Administration (NTIA) awarded an
$11,169,402 Public Safety Interoperable                     The Digital Television Transition and Public
Communications (PSIC) grant to the state of                 Safety Act of 2005 authorized NTIA, in
Arkansas to enhance interoperable emergency                 consultation with the Department of Homeland
communications. The amount of the award                     Security (DHS), to implement the PSIC program
subject to match is $10,907,902. NTIA                       ─ a $1 billion one-time, formula-based matching
required a minimum 20-percent matching                      grant program intended to enable public safety
                                                            agencies to establish interoperable emergency
share ($2,726,976) from nonfederal sources
                                                            communications systems using reallocated radio
for acquisition and deployment of                           spectrum.
communications equipment, and management
and administrative costs. Statewide planning,               NTIA signed a memorandum of understanding
planning and coordination, and training costs               with the Department of Homeland Security,
do not require matching share.                              under which DHS oversees and administers the
                                                            PSIC program.
The original award period runs from October
1, 2007, to September 30, 2010.On November                  The Implementing Recommendations of the 9/11
6, 2009, the President signed Public Law 111-               Commission Act of 2007 requires the Commerce
96, which extended the allowable completion                 Inspector General to conduct financial audits,
                                                            over 4 years, of a representative sample of at
periods for all PSIC grants for one year, but
                                                            least 25 states or territories receiving PSIC
not later than September 30, 2011, except as                grants. The Arkansas grant program is among
determined by NTIA.                                         the first audits under this requirement.

The governor of Arkansas designated the
Arkansas Department of Emergency Management (ADEM) as Arkansas’s state administrative
agency to apply for and administer PSIC funds.1

In October 2008, we initiated an audit of costs claimed by ADEM to determine whether it had
complied with NTIA PSIC grant guidelines and the Department of Homeland Security award
terms and conditions. The audit covered the award period of October 1, 2007, through December
31, 2008, during which time the recipient claimed total costs of $1,512,347.

The objective of our audit was to determine whether ADEM was using its grant funds in
accordance with federal requirements. In particular, we assessed whether ADEM (1) was on
track to complete its interoperable communications investments by September 30, 2010; (2) met
the minimum 20-percent match for acquiring and deploying interoperable communications
equipment, and management and administrative costs; (3) claimed reasonable, allowable, and
1
  The PSIC program requires the governor of each state and territory to designate a state administrative agency to
apply and administer PSIC funds. Administrative agencies are required to pass through no less than 80 percent of the
total award amount to local or tribal governments or authorized nongovernmental public safety agencies, unless the
local entity opts, via written agreement, to have the state agency retain and spend the funds on its behalf. Grantees
must meet a 20 percent nonfederal match for acquisition and deployment.


                                                     1                                                     

U.S. Department of Commerce                                           Final Report DEN-19430 

Office of Inspector General                                                       March 2010



allocable costs under the award; and (4) complied with grant terms and conditions. Appendix A
outlines the objectives, scope, and methodology we used in the audit.

ADEM asserts that all five investments are on schedule to be completed by September 30, 2010.
(See pages 3 through 5.)

ADEM has sufficient minimum budgeted matching share of $2,726,976. However, during our
fieldwork we found that ADEM planned to claim $2,648,043 as match for an unallowable
servicing contract. ADEM changed this match to an allowable capital improvement project. (See
pages 5 and 6.)

ADEM claimed costs of $1,512,347 on the December 31, 2008, financial status report. We
determined that the costs claimed were reasonable, allowable, and allocable according to PSIC
grant regulations. (See page 8 and appendix C).

ADEM generally complied with grant terms and conditions. ADEM complied with requirements
for financial status reporting, cash drawdowns, and 80-percent pass-through to local applicants.
(See pages 6 and 7.) Outside of the unallowable matching share, which ADEM subsequently
changed, we have no findings or recommendations.




                                            2                                            

U.S. Department of Commerce                                              Final Report DEN-19430 

Office of Inspector General                                                          March 2010



                                 Findings and Recommendations

I. ADEM Asserts Individual Investments Are on Schedule

ADEM prepared an investment justification based on NTIA’s PSIC Investment Justification
Reference Guide (dated September 2007) that detailed individual communications projects
intended to (1) achieve meaningful and measurable improvements in interoperability, and (2) fill
gaps identified in the statewide communications interoperability plan. The investment
justification had a total of five investments (table 1) and was approved on May 22, 2008. ADEM
asserts that all five investments are on schedule to be completed by September 30, 2010.

Table 1. Investment Justification and Funding

                                                      PSIC Funds          Non-
         PSIC Investment Justification                 Awarded           Federal          Total
                                                                         Match
1. Satellite Back-up System                            $ 4,357,034      $1,089,258     $ 5,446,292
2. Network Interconnect Equipment                        3,000,000         750,000       3,750,000
3. Capacity/Infrastructure                               2,035,000         508,750       2,543,750
4. Site on Wheels                                          865,054         216,264       1,081,318
5. Sebastian County AWIN Expansion Project                 315,732          78,933         394,665
Statewide Plan                                             261,500                         261,500
Management and Administration                              335,082          83,771         418,853
Total                                                  $11,169,402      $2,726,976     $13,896,378
Source: ADEM Investment Justification

States were required to include a strategic technology reserve in their justifications, designed to
pre-position interoperable communications or secure them in advance for immediate deployment
in an emergency situation or major disaster. Arkansas’s strategic technology reserve is
investment 4.

Arkansas’s FY 2007 PSIC investment justification describes the state’s projects as follows.

Investment 1: Satellite Back-up System

The Arkansas Wireless Information Network (AWIN) provides wireless radio communications
for public safety first responders in the state of Arkansas. Many public safety users rely on
AWIN as their primary means of communication. This investment will allow Arkansas to
provide a baseline number of satellite phones to each jurisdiction in the state and to cabinet-level
state agencies. ADEM asserts investment 1 is on schedule to be completed by September 30,
2010.

Investment 2: Network Interconnect Equipment

This investment will allow for the provisioning of network interconnectivity equipment across
the state, based on the equipment already in place and the needs of the users in the region.


                                             3                                              

U.S. Department of Commerce                                             Final Report DEN-19430 

Office of Inspector General                                                         March 2010



Satellite phone systems may be connected to the AWIN system via these network
interconnectivity tools. This solution will enable local public safety entities to communicate with
neighboring cities, counties, and the state in the event of an emergency that involves multiple
jurisdictions and organizations. ADEM asserts investment 2 is on schedule to be completed by
September 30, 2010.

Investment 3: Capacity/Infrastructure

Geographically, the AWIN system covers 53,179 square miles and serves more than 2.8 million
citizens. As the population of the state grows and as more public safety entities move to using
AWIN as their primary communications system, the system capacity must be maintained at a
high level of availability. This investment will allow for the implementation of additional
infrastructure equipment across the state, based on areas of greatest need. ADEM asserts
investment 3 is on schedule to be completed by September 30, 2010.

Investment 4: Site on Wheels

For this project, the state proposes to procure a “site on wheels,” purchase a cache of 40-50 spare
radios, and develop a team that will be trained to deploy and manage the equipment. This
equipment would be used not only to restore communications at sites that are unavailable, but
would also augment communications during emergencies, or large events. This equipment will
be available to public safety organizations statewide. ADEM asserts investment 4 is on schedule
to be completed by September 30, 2010.

              Figure 1. Site on Wheels




                                             4                                             

U.S. Department of Commerce                                                Final Report DEN-19430 

Office of Inspector General                                                            March 2010



Investment 5: Sebastian County AWIN Expansion Project

Sebastian County currently uses five radio systems. Each agency in the county can communicate
only with its own agency and not with responders from other counties or the state. All of the
county’s radio systems are antiquated and suffer frequent failures. Sebastian County has large
noncoverage areas within the county.
                                                                          Project 25 (P25) is a set of
Sebastian County plans to become completely integrated with the           national standards for
P25 800-MHz trunked radio AWIN system, which provides                     manufacturing
                                                                          interoperable, digital, two-
coverage across the entire state. The county plans to purchase            way wireless
infrastructure equipment that exactly matches and integrates with         communications products.
the AWIN system. This will increase capacity and coverage to the          Radio equipment that meets
large number of users the county plans to place on the statewide          P25 standards can
system. ADEM asserts investment 5 is on schedule to be                    communicate with any
                                                                          other P25 system,
completed by September 30, 2010.                                          regardless of vendor,
                                                                          enabling users of different
II. ADEM Changed Its Unallowable Matching Share 	                         systems to talk via direct
                                                                          radio contact.
ADEM is required to have a 20-percent matching share in place
from nonfederal sources for acquisition and deployment of communications equipment, and
management and administrative costs. The match is required by the Digital Television Transition
and Public Safety Act of 2005, Public Law 109-171, Section 3006, the PSIC Grant Program
Guidance and Application Kit, and the special award conditions. The match can be identified and
allocated at either the investment level or at the total PSIC (i.e., overall funding) level; therefore,
individual investments can be undermatched or overmatched according to the needs of the
applicant. NTIA’s PSIC Grant Program Guidance and Application Kit, Section VI, Part B,
requires the match be expended at the same rate as the federal share. As of December 31, 2008,
ADEM claimed matching share costs of $314,754, which is beyond the amount required to keep
pace with federal outlays.

ADEM’s approved investment justification has budgeted matching share of $2,726,976.
Sebastian County was budgeted to provide $78,933 of matching share. The remaining
$2,648,043 of matching share was originally to be provided from a Motorola servicing contract.
However, we questioned the Motorola servicing contract being used as match because the
contract was in place before the PSIC grant was awarded to Arkansas. The contract was dated
June 22, 2007, and covered the period July 1, 2007, through June 30, 2009. The PSIC grant was
awarded to Arkansas on September 30, 2007. Nothing in the servicing contract has been added
as a result of the PSIC award. There is no “new” match funding as a result of the PSIC award.

After our site visit and because using the Motorola servicing contract as match was questioned,
ADEM identified a capital improvement project as matching share covering investments 1
through 4. The project is a microwave addition, and is entirely funded by state general revenue.
One of the three main priorities of the investment justification is increasing capacity, which is
needed for additional radios, phones, and other systems. We accept this match.




                                              5                                                   

U.S. Department of Commerce                                             Final Report DEN-19430 

Office of Inspector General                                                         March 2010



ADEM’s change of $2,648,043 of budgeted match from the servicing contract to a capital
improvement project will put $2,648,043 of funds to better use.

III. ADEM Complied with Grant Terms and Conditions

A. ADEM Complied with Financial Status Reporting Requirement

We reviewed the financial status reports (Standard Form 269) filed by ADEM for the period of
October 2007 through December 2008. We found that ADEM submitted all its financial status
reports in a timely manner, although two of the five financial reports were submitted one day late
(see table 2). The PSIC Grant Program Guidance and Application Kit states that these reports
must be filed within 30 days of the end of each calendar quarter for every quarter the award is
active, including partial calendar quarters and periods during which no grant activity occurs.

     Table 2. Financial Status Report Submissions

                                                                                   Days
           Reporting Period            Date Report Filed    Report Due Date
                                                                                   Late
          10/1/2007 – 12/31/2007               1/31/2008            1/30/2008             1
            1/1/2008 – 3/31/2008               4/30/2008            4/30/2008             0
            4/1/2008 – 6/30/2008               7/28/2008            7/30/2008             0
            7/1/2008 – 9/30/2008              10/31/2008           10/30/2008             1
          10/1/2008 – 12/31/2008               1/26/2009            1/30/2009             0
     Source: ADEM Financial Status Reports

B. ADEM Complied with Cash Drawdown Requirement

The PSIC Grant Program Guidance and Application Kit, Section VI (B), states that grantees
should draw down funds as close to expenditure as possible, up to 30 days prior to
expenditure/reimbursement, to avoid accruing interest. Funds received by grantees must be
placed in an interest-bearing account, and if not expended in 30 days any interest earned must be
remitted to the U. S. Treasury. We reviewed ADEM’s PSIC cash drawdowns as of December 31,
2008, which totaled $1,197,593, and found them in compliance.

The PSIC Grant Program Guidance and Application Kit allowed states to draw down funds up
to 5 percent of their PSIC allocations prior to receiving their full grant amounts to ensure that
PSIC requirements are addressed in their statewide communications interoperability plan. On
April 24, 2008, ADEM drew down $253,330 for statewide planning funds to update their
statewide communications interoperability plan.

C. ADEM Complied with 80-Percent Pass-Through Requirement

ADEM passed through $9.7 million (87 percent) of the $11.2 million in PSIC federal funds,
exceeding the 80-percent pass-through requirement stated in the PSIC Grant Program Guidance
and Application Kit. States are also required to pass through PSIC funds to local or tribal


                                             6                                                

U.S. Department of Commerce                                           Final Report DEN-19430 

Office of Inspector General                                                       March 2010



applicants within 60 days after approval of the investment justification. ADEM complied with
this requirement as well (see table 3).

Table 3. Pass-Through of PSIC Funds

                                   Pass Through       Total
                    Funds                                           PSIC
                                      Funds          Funding
                    Passed                                          Funds     Total Federal
                                    Retained by       Passed
                  Through to                                      Retained       Funds
                                     State Via      Through to
                    Locals                                       by the State
                                      MOUs            Locals
Investment 1         $         0       $4,357,034    $4,357,034   $         0  $ 4,357,034
Investment 2                   0        3,000,000      3,000,000            0     3,000,000
Investment 3                   0        2,035,000      2,035,000            0     2,035,000
Investment 4                   0                0              0     865,054        865,054
Investment 5             315,732                0        315,732            0       315,732
Statewide                      0                0              0     261,500        261,500
Planning
M&A Costs                   0                  0               0        335,082         335,082
 Total               $315,732         $9,392,034      $9,707,766     $1,461,636     $11,169,402
Percent                     3                 84              87             13             100
Source: ADEM Documents

ADEM retained $0.9 million in funding for strategic technology reserve, $0.3 million for
management and administration costs, and $0.3 million for statewide planning.

IV. Reasonable and Allowable Costs Were Claimed

ADEM claimed costs of $1,512,347 on the December 31, 2008, financial status report. We
determined that the costs claimed were reasonable, allowable, and allocable according to PSIC
grant regulations (see appendix C).

V. Follow-Up Was Conducted on Prior Audit Recommendations

We met with the Arkansas deputy legislative auditor to discuss our audit of the PSIC grant at
ADEM. We reviewed the state’s Office of Management and Budget (OMB) Circular No. A-133
audit report for the year ended June 30, 2007. Although the PSIC program was not part of the
audit, we reviewed the report for issues that could have a direct and material effect on the
program and identified one item:

   1.	 Overpayments to Counties. The legislative auditor found that ADEM made overpayments
       to three counties relating to disaster assistance, and that ADEM made a disaster
       assistance payment without the appropriate supporting documentation. We reviewed all
       of ADEM’s payments for the PSIC grant and found that no overpayments were made.
       We also determined that the payments ADEM made contained appropriate supporting
       documentation.



                                            7                                              

U.S. Department of Commerce                                            Final Report DEN-19430 

Office of Inspector General                                                        March 2010



                           Summary Results of Financial Audit

The results of our interim cost audit for the period of October 1, 2007, through December 31,
2008 (detailed in appendix C) are summarized as follows:

       Federal Funds Disbursed                                     $1,197,593
       Costs Incurred                       $1,512,347
       Less Questioned Costs                         0
       Costs Accepted                       $1,512,347
       Less Matching Share                     314,754
       Federal Funds Earned                                        $1,197,593

Refund Due the Government                                          $         0




                                            8                                            

U.S. Department of Commerce                                         Final Report DEN-19430 

Office of Inspector General                                                     March 2010



                         Agency Response and OIG Comments

A response to our draft audit report was due from ADEM on February 12, 2010, but the agency
did not provide one. When contacted, ADEM stated it had no official response.




                                          9                                          

U.S. Department of Commerce                                           Final Report DEN-19430 

Office of Inspector General                                                       March 2010



                   Appendix A: Objectives, Scope, and Methodology

The objective of our audit was to determine whether ADEM was using its grant funds in
accordance with federal requirements. In particular, we assessed whether ADEM (1) is on track
to complete its interoperable communications investments by September 30, 2010; (2) met the
minimum 20-percent match for acquiring and deploying interoperable communications
equipment, and management and administrative costs; (3) claimed reasonable, allowable, and
allocable costs under the award; and (4) complied with grant terms and conditions.

The audit scope included a review of costs claimed during the award period of October 1, 2007,
through December 31, 2008. We conducted our fieldwork in October 2008 at the ADEM office
in North Little Rock, Arkansas.

To meet our objectives we did the following:

   •	 reviewed investment documentation and discussed each investment with officials from
      ADEM
   •	 analyzed source documents related to the minimum 20-percent match for acquiring and
      deploying interoperable communications equipment
   •	 traced costs claimed to source documentation
   •	 interviewed ADEM officials, including the Arkansas deputy legislative auditor, and
      reviewed the state's OMB Circular No. A-133 audit report for the year ending June 30,
      2007
   •	 reviewed pertinent laws, regulations, and guidance (listed below) against ADEM's PSIC
      activities and internal controls

We evaluated ADEM’s compliance with federal laws and regulations applicable to the PSIC
grant project and found them to be generally in compliance with the following:

   •	 Section 3006 of the Digital Television Transition and Public Safety Act of 2005, Public
      Law 109-171
   •	 Call Home Act of 2006, Public Law 109-459
   •	 Implementing Recommendations of the 9/11 Commission Act of 2007, Public Law 110-
      53
   •	 Public Safety Interoperable Communications Grants, Public Law 111-96
   •	 PSIC Grant Program Guidance and Application Kit, August 16, 2007
   •	 NTIA PSIC Grant Program Allowable Cost Matrix
   •	 NTIA PSIC Grant Program Frequently Asked Questions
   •	 OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments
   •	 OMB Circular A-133, Compliance Supplement, CFDA 11.555

                                          10                                            

U.S. Department of Commerce                                            Final Report DEN-19430 

Office of Inspector General                                                        March 2010



   •   Special Award Conditions
   •   Department of Commerce Financial Assistance Standard Terms and Conditions
   •   DHS, Office of Grant Operations, Financial Management Guide

We obtained an understanding of the management controls of ADEM by interviewing ADEM
officials, examining policies and procedures, reviewing written assertions of ADEM officials,
and examining the state of Arkansas’s most recent single audit report. We did not rely on the
accounting firm’s internal control reviews but instead determined that we could better meet our
audit objectives through testing of PSIC transactions.

We verified the validity and reliability of computer-processed data supplied by ADEM by
directly testing data against supporting documentation. Based on our tests, we concluded the
computerized data was reliable for use in meeting our objectives.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

We performed this audit under authority of the Implementing Recommendations of the 9/11
Commission Act of 2007, the Inspector General Act of 1978, as amended, and Department
Organization Order 10-13, August 31, 2006.




                                           11                                            

U.S. Department of Commerce                                           Final Report DEN-19430 

Office of Inspector General                                                       March 2010



              Appendix B: Summary of Source and Application of Funds

             ARKANSAS DEPARTMENT OF EMERGENCY MANAGEMENT 

               PUBLIC SAFETY INTEROPERABLE COMMUNICATIONS

                          GRANT NO. 2007-GS-H7-0012 

                 OCTOBER 1, 2007, THROUGH DECEMBER 31, 2008 



                                       Approved                      Receipts &                  

                                        Budget                        Expenses

                                         (a)                            (b)

SOURCE OF FUNDS:


Federal                                $11,169,402                    $1,197,593
Nonfederal                               2,726,976                       314,754


Total                                  $13,896,378                    $1,512,347



APPLICATION OF FUNDS:

Investment 1                            $5,446,292                    $         0
Investment 2                             3,750,000                              0
Investment 3                             2,543,750                              0
Investment 4                             1,081,318                        634,698
Investment 5                               394,665                        624,319
Statewide Planning                         261,500                        253,330
M&A Costs                                  418,853                              0

Total                                  $13,896,378                    $1,512,347


Notes:

(a) Approved budgeted costs are for the period of October 1, 2007,
    through September 30, 2011 based on Arkansas's approved
    investment justification.
(b) Receipts and expenses are for the period of October 1, 2007
    through December 31, 2008.




                                           12                                         

U.S. Department of Commerce                                      Final Report DEN-19430 

Office of Inspector General                                                  March 2010



                 Appendix C: Summary of Financial/Compliance Audit

              ARKANSAS DEPARTMENT OF EMERGENCY MANAGEMENT 

                PUBLIC SAFETY INTEROPERABLE COMMUNICATIONS

                           GRANT NO. 2007-GS-H7-0012 

                  OCTOBER 1, 2007, THROUGH DECEMBER 31, 2008 



                                                             Results of Audit
                       Approved            Costs         Costs                Costs
Description             Budget            Claimed      Questioned          Accepted

Investment 1          $5,446,292      $        0                   $0       $        0
Investment 2           3,750,000               0                    0                0
Investment 3           2,543,750               0                    0                0
Investment 4           1,081,318         634,698                    0          634,698
Investment 5             394,665         624,319                    0          624,319
Statewide Plan           261,500         253,330                    0          253,330
M&A Costs                418,853               0                    0                0
Total                $13,896,378      $1,512,347                   $0       $1,512,347




Federal Funds Disbursed                             $1,197,593
Costs Incurred                     $1,512,347
Less Questioned Costs                       0
Costs Accepted                      1,512,347
Less: Matching Share                  314,754
Federal Funds Earned                                 1,197,593

Refund Due the Government                                  $0




                                     13                                          

